RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20-440
Minerva Surgical, Inc.,
Petitioner,
v.
Hologic, Inc., Cytyc Surgical Products, LLC,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Robert N. Hochman, certify
that the Brief for Petitioner in the foregoing case contains 12,959 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 22, 2021.
/s/ Robert N. Hochman
ROBERT N. HOCHMAN
SIDLEY AUSTIN LLP
One South Dearborn
Chicago, IL 60603
(312) 853-7000

